No. ___________
IN THE SUPREME COURT OF THE UNITED STATES
BRYAN MITCHELL LIETZAU, Petitioner,
vs.
STATE OF ARIZONA, Respondent.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE ARIZONA SUPREME COURT
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner Bryan Mitchell Lietzau requests leave to file the accompanying
Petition for Writ of Certiorari without prepayment of costs and to proceed in forma
pauperis. Petitioner has been granted leave to so proceed before the Arizona Superior
Court, Arizona Court of Appeals, and Arizona Supreme Court. Petitioner does not
have financial resources, and the Pima County Public Defender’s Office was
appointed by the Arizona Superior Court to represent Petitioner in his trial and
appeal in this case. Petitioner’s financial affidavit is attached.
Respectfully submitted:

November 5, 2020.
______________________________
DAVID J. EUCHNER
Counsel of Record
Pima County Public Defender’s Office
33 N. Stone Ave., 21st Floor
Tucson, Arizona 85701
(520) 724-6800 voice
david.euchner@pima.gov
Attorney for Petitioner Bryan Lietzau

